OIG Investigative Reports Press Release Fresno, CA., 11/21/2013 -  Indictment Unsealed as Atwater Woman Makes Court Appearance for Student Financial Aid Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of CALIFORNIA
NEWS
United States Attorney Benjamin B. Wagner
Eastern District of California
Indictment Unsealed as Atwater Woman Makes Court Appearance for Student Financial Aid Fraud
FOR IMMEDIATE RELEASE
Thursday, November 21, 2013
www.justice.gov/usao/cae/
usacae.edcapress@usdoj.gov
Docket #: 1:13-cr-404 LJO
FRESNO, Calif. — Sherise Woolridge, 31, of Atwater, self-surrendered today on an arrest warrant for an indictment brought on November 7, 2013, charging her with nine counts of mail fraud, two counts of aggravated identity theft and two counts of student aid fraud, United States Attorney Benjamin B. Wagner announced.
Woolridge was arraigned today before U.S. Magistrate Judge Sheila K. Oberto and entered a plea of not guilty. Her next court appearance is set for December 2, 2013.
This case is the result of the U.S. Department of Education Office of Inspector General’s and the United States Postal Inspection Service’s criminal investigations aimed at shutting down federal student aid “fraud rings” that seek to exploit federal student aid programs. Assistant United States Attorney Mark J. McKeon is prosecuting the case.
“Scams like this steal money from hardworking taxpayers and legitimate students and that is unacceptable,” said Natalie Forbort, Special Agent in Charge of the U.S. Department of Education Office of Inspector General’s Western Regional Office. “Much like her co-conspirators, Ms. Woolridge didn’t think she would get caught. All of them were wrong. Criminals be warned: we will to continue to work with our colleagues to aggressively pursue anyone who steals student financial aid. We will find you. You will be caught and held accountable for your unlawful actions.”
According to the indictment, Woolridge participated in a scheme to defraud the United States Department of Education of student aid grants and loans. She allegedly submitted false financial aid applications to Axia College at the University of Phoenix and Capella University on behalf of students who did not intend to attend either school. She is charged with using stolen or wrongfully obtained personal identifying information for persons who did not know their identities would be used to apply for college financial aid. As a result of the scheme to defraud, it is alleged that more than $200,000 in grants and loans were disbursed.
If convicted, Woolridge faces a maximum possible sentence of 20 years in prison for mail fraud, two-year mandatory consecutive sentence for each count of aggravated identity theft, and five years in prison for each count of financial aid fraud. Any sentence, however, would be determined at the discretion of the court after consideration of any applicable statutory factors and the Federal Sentencing Guidelines, which take into account a number of variables. The charges are only allegations; the defendant is presumed innocent until and unless proven guilty beyond a reasonable doubt.
Sherise Woolridge is the niece of several defendants in the same scheme that was charged separately in 2012. Keith Woolridge Sr., 41, of Fresno, was convicted of conspiracy to commit mail fraud, mail fraud, and aggravated identity theft after a three-day jury trial in July 2013. His sisters, Piersha Dwan Woolridge, 34, of Atwater, and Kim Rene Grey, 39, of Los Banos, pleaded guilty to the scheme before the trial as did co-defendant Yvette Maura August, 41, of Atwater. Keith Woolridge was ordered to begin serving a three and a half year prison sentence on January 27, 2014; Kim Grey and Yvette August were ordered to begin their two-year prison sentences on January 13, 2014. Sentencing for Piersha Woolridge is scheduled for February 10, 2014.
Top
Printable view
Last Modified: 11/26/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov